DOCKET NO. ___________
IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020

RONALD KNIGHT,
Petitioner,
vs.
SECRETARY, FLORIDA DEPARTMENT OF CORRECTIONS, et. al.,
Respondent.

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
COMES NOW, the Petitioner, RONALD KNIGHT, by and through
undersigned counsel, pursuant to Rule 39, and moves for leave of this Court to
proceed in forma pauperis in this proceeding. Petitioner has been found indigent by
each state and federal court in which he has challenged this conviction and
sentence and has been permitted to proceed in forma pauperis before each of those
courts: the Florida Supreme Court; the Circuit Court of the Fifteenth Judicial
Circuit in and for Palm Beach County, Florida; and the United States District
Court for the Southern District of Florida and the Eleventh Circuit Court of
Appeals.
Undersigned was appointed to represent Mr. Knight before the district court
and the Eleventh Circuit Court of Appeals pursuant to 18 U.S. C. ยง 3006A.
WHEREFORE, Petitioner moves the Court for leave to proceed in this action
in forma pauperis.

1

I HEREBY CERTIFY that a true copy of the foregoing motion has been
furnished by United States Mail, first-class postage prepaid, to all counsel of record
on January 7, 2021.
/s/. Linda McDermott
LINDA McDERMOTT
Florida Bar No. 0102857
Chief Assistant-Capital Habeas Unit
Office of the Federal Public Defender
227 N. Bronough St.
Tallahassee, FL 32301
Telephone: (850) 322-2172
Fax: (850) 942-8809
linda_mcdermott@fd.org
Counsel for Mr. Knight

2

